RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1072
Chad Thompson, William T. Schmitt, and Don Keeney,
v.

Petitioners

Richard Michael DeWine, Governor of Ohio; Stephanie McCloud, Director of Ohio
Dep’t of Health; and Frank LaRose, Ohio Secretary of State,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Mark R. Brown, certify that
the Reply Brief for Petitioners in the foregoing case contains 2,988 words, excluding
the parts of the document that are excluded by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 30, 2021.

/s/ Mark R. Brown
MARK R. BROWN
CAPITAL UNIVERSITY LAW
SCHOOL
303 E. Broad Street
Columbus, OH 43215
(614) 236-6590
mbrown@law.capital.edu

